  OFFICE OF INSPECTOR GENERAL

                 Audit Report

Audit of the General and Application Controls in the
 Financial Management Major Application System

                 Report No. 09-05
                September 30, 2009




   RAILROAD RETIREMENT BOARD
                                       TABLE OF CONTENTS


Introduction
 Background ................................................................................................................. 1
 Objective...................................................................................................................... 2
 Scope .......................................................................................................................... 2
 Methodology ................................................................................................................ 3

Results of Evaluation
 Segregation of Duties for Accounts Receivable Transactions is Not Enforced............ 5
 Access Control over Dataset Rules Needs to be Improved ......................................... 6
 Access Controls that Enforce Least Privilege Need Improvement............................... 8
    Inconsistent Methodology Used ............................................................................................8
    Inaccurate Base-Line Information Provided ..........................................................................9
    Reauthorization Responses Not Implemented......................................................................9
    Other Access Issues Noted for RUCS ..................................................................................9
 Field Service Access Profile Needs Updating............................................................ 11
 Controls over ACF2 Special Privileges Can be Improved.......................................... 12
 Contractor Account Management Can be Improved.................................................. 14
 Emergency Program Change Controls Can be Improved.......................................... 15
 Password Rules Are Inconsistent and Do Not Enforce Written Policy ....................... 16

Appendices
 Appendix I Effectiveness of Controls over Access Provided to PAR ........................ 18
 Appendix II Effectiveness of Controls over Access Provided by ACF2..................... 19
 Appendix III Bureau of Fiscal Operations Management's Response ........................ 21
 Appendix IV Office of Programs Management's Response ...................................... 22
 Appendix V Bureau of Information Services Management's Response.................... 25




                                                               i
                                       INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of
general and application controls over the financial management major application
system using the methodology contained in the Government Accountability Office's
(GAO) Federal Information System Controls Audit Manual (FISCAM). 1

Background

The Railroad Retirement Board (RRB) administers the retirement/survivor and
unemployment/sickness insurance benefit programs for railroad workers and their
families under the Railroad Retirement Act and the Railroad Unemployment Insurance
Act. These programs provide income protection during old age and in the event of
disability, death, temporary unemployment or sickness. The RRB paid over
$10.1 billion in benefits during fiscal year (FY) 2008.

The RRB’s financial management major application includes two mainframe
components, the Federal Financial System (FFS) and the Program Accounts
Receivable (PAR) system, which support budget formulation and execution, general
ledger accounting, accounts payable, cost accounting, payroll, and accounts receivable
activities. Access to the financial management major application is controlled by ACF2,
a commercial access control software product, with additional security at the transaction
level provided by core security within FFS or PAR. The core security controls user
activities such as document preparation and table entries, and their associated
approvals. On-line data entry from personal computers in headquarters and field offices
allows for updates to FFS and PAR, with overnight batch update processing and
reporting.

The Bureau of Fiscal Operations (BFO) is the owner-of-record for FFS, PAR and the
Automated System to Recover Overpayments (ASTRO), and has responsibility for
system administration of FFS and PAR. The BFO system administrator maintains the
security settings within FFS and PAR, including the access privileges for new and
existing users.

The Office of Programs is the owner-of-record for the RRB’s benefit payment systems,
including the Railroad Unemployment Claims System (RUCS) and the Field Address
Suspension Termination System (FAST). The Office of Programs includes the RRB’s
Field Service Office organizational component.

The Bureau of Information Services (BIS) is the owner-of-record for the Payment, Rate
and Entitlement History System (PREH) and the Employment Data Maintenance
System (EDMA). Additionally, BIS has responsibility for the security administration of
ACF2, which controls access to all mainframe systems and provides the initial access


1
 Federal Information System Controls Audit Manual, GAO/AIMD-12.19.6 (January 1999), and revision
GAO-09-232G (February 2009).

                                                1
gateway to FFS, PAR, RUCS, FAST, and ASTRO. BIS also maintains two separate
security systems that provide for the transaction level activities within RUCS and FAST.

The FISCAM provides a methodology for evaluating internal controls over the
confidentiality, integrity, and availability of data maintained in financial information
systems that support agency business operations. The FISCAM methodology aligns
with the internal control standards promulgated by the National Institute of Standards
and Technology (NIST) in Special Publication (SP) 800-53, which makes it an ideal tool
for assessing agency progress in meeting requirements established by the Federal
Information Security Management Act of 2002 (FISMA). 2

FISMA requires agencies to develop, document, and implement an agency-wide
information security program. The OIG has the responsibility of evaluating the
information security at the RRB. Information security means protecting information and
information systems from unauthorized access, use, disclosure, disruption, modification
or destruction in order to provide confidentiality, integrity and availability. Access
controls limit or detect access to computer resources (data, programs, equipment, and
facilities), thereby protecting these resources against unauthorized modification, loss,
and disclosure.

This audit was conducted pursuant to FISMA, which requires annual OIG security
evaluations. This audit also supports the RRB’s strategic goal of serving as responsible
stewards of the agency’s trust funds and financial resources, and its objective to ensure
the effectiveness, efficiency, and security of operations.

Objective

The objective of this review was to determine the adequacy of the general and
application controls over the financial management major application system.

Scope

The scope of this evaluation was FY 2008 and included the financial management
major application and the general support system environment in which it operates.
Due to the impact of the benefit payment systems upon the financial management major
application, the access control and emergency program change portions of our general
support system review included all component applications regardless of whether or not
they were specific components of the financial management major application.

Our scope for the evaluation of software development was expanded to include projects
as far back as FY 2005, the date when the last major modification of the financial
management major application took place. The scope for our evaluation of personnel
security included individuals hired by the RRB during calendar year 2007 in order to

2
 Recommended Security Controls for Federal Information Systems, NIST SP-800-53 (December 2007);
Federal Information Security Management Act of 2002, Title III of the E-Government Act of 2002,
P.L. 107-347 (December 2002).

                                               2
allow for the completion of the Office of Personnel Management background checks
and references that were performed into FY 2008, following employment.

Methodology

To accomplish our objective, we:

   •   reviewed pertinent laws and guidance;
   •   obtained and reviewed documentation to support software development projects
       from FY 2005 through FY 2007 that impacted the financial management major
       application;
   •   obtained and reviewed documentation to support all emergency program
       changes that occurred in FY 2008;
   •   compared the RRB’s password policy with the settings within the mainframe and
       LAN general support systems and Federal Desktop Core Configuration, and
       performed validation testing of major password rules;
   •   obtained and reviewed documentation to support background investigation and
       reference checks for employees hired during calendar year 2007;
   •   obtained job descriptions for several employees with access to sensitive areas or
       the financial management application, and determined through interview whether
       those job descriptions were reasonably accurate and current;
   •   obtained and reviewed documentation to support authorized key-card access as
       of November 15, 2007, to sensitive areas including the data center, and
       determined whether the access was appropriate to job function;
   •   obtained and reviewed procedures for the removal and return of electronic
       media, and conducted independent tests to verify backup tape delivery to, and
       receipt from, the Federal Records Center;
   •   obtained and reviewed documentation to support disaster recovery testing of the
       financial management major application performed at the RRB’s offsite test
       facility during FY 2008;
   •   obtained and reviewed listings of all mainframe and LAN user account
       identifications (IDs) as of January 30, 2008 and February 15, 2008, and verified
       that each user was a current RRB employee or an authorized non-RRB user;
   •   selected a statistical random sample of PAR application users with access
       greater than read-only as of December 10, 2008, and obtained and reviewed
       their individual access profiles to determine if their access was appropriate to job
       function;
   •   obtained and reviewed documentation to support access to FFS and PAR
       dataset files as of February 8, 2008 (and February 13, 2008, to determine



                                             3
      •   selected a statistical random sample of mainframe application users as of
          January 30, 2008, and obtained and reviewed their individual access profiles to
          determine if their access was appropriate to job function;
      •   obtained and reviewed documentation to support the periodic reauthorization of
          mainframe application users performed in FY 2008, to confirm that all
          applications had been considered, and to evaluate the effectiveness of the
          reauthorization process;
      •   obtained and reviewed the access profiles as of February 12, 2009 and job
          descriptions for field service employees to determine if their access was
          appropriate to job function;
      •   obtained and reviewed documentation to support special privilege access
          provided through ACF2 as of January 30, 2008, to determine whether the access
          granted was appropriate to job function and periodically reauthorized; and
      •   interviewed responsible agency management and staff.

The primary criteria for this evaluation included:

      •   GAO's FISCAM;
      •   FISMA;
      •   NIST SP 800-53;
      •   GAO Standards for Internal Control in the Federal Government; 3
      •   Office of Management and Budget (OMB) Circular A-130; 4 and
      •   RRB policies and procedures.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Fieldwork was conducted at RRB headquarters in Chicago, Illinois
from December 2007 through May 2008, and October 2008 through June 2009.




3
    Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (November 1999).
4
    Management of Federal Information Resources, OMB Circular A-130 (November 2000).

                                                   4
                                     RESULTS OF EVALUATION

Our review of the financial management major application determined that the general
and application controls over entity-wide security program planning and management,
data center access, non-emergency systems development, and service continuity/data
recovery and backup procedures are adequate. However, the general and application
controls are not adequate to ensure:

      •   proper segregation of duties,
      •   least privilege access control,
      •   contractor account management,
      •   authorized emergency program changes, and
      •   consistent password management and implementation.

The details of our findings and recommendations for corrective action follow. Agency
management has agreed to take the recommended corrective actions except for
recommendations five, nine, and ten. The full texts of management's responses are
included in this report as Appendices III, IV, and V.

Segregation of Duties for Accounts Receivable Transactions is Not Enforced

Security settings within the PAR component application allow some employees the
ability to both enter and approve their own accounts receivable documents or table
entries, and therefore, do not support proper segregation of duties.

GAO Standards for Internal Control in the Federal Government requires key duties and
responsibilities to be divided or segregated among different people, including the
responsibilities for processing, recording, and authorizing transactions. It states, “[n]o
one individual should control all key aspects of a transaction or event.”

Our review of security profiles for a statistical random sample of 49 individuals with PAR
access greater than read only, disclosed 24 who are able to both enter and approve
their own transactions. 5 We were advised by BFO management that supervisory review
is performed for some PAR transactions processed in the debt recovery unit, but other
transactions are processed without review. Likewise, in the Office of Programs
Medicare unit, management advised that their users may or may not approve their own
transactions based on the type of transaction processed. The Office of Programs has
implemented other "no authorization" transactions throughout their processes and has
performed validation studies to assess continued accuracy; however, no validation
study has been performed for the types of Medicare transactions that are currently
self-processed.

When management has implemented policy decisions that eliminate or forego certain
controls without implementing a compensating control, the risk for fraud or abuse
increases and management cannot ensure their control objectives will be achieved.
5
    See Appendix I for details of our testing methodology.

                                                       5
Recommendations

We recommend that the Bureau of Fiscal Operations:

   1.    implement a control to ensure supervisory review of transactions that are
         self-processed.

We recommend that the Office of Programs:

   2.    implement regular reviews of Medicare option cases for accuracy; and

   3.    perform a validation study to assess the accuracy of other types of Medicare
         self-processed transactions.

Management's Response

The Bureau of Fiscal Operations will implement a control to ensure supervisory review
of transactions that are self-processed.

The Office of Programs has agreed to initiate quarterly reviews of Medicare option
cases in FY 2010, and will complete a validation study and issue a report that will
determine the need for any additional studies.


Access Control over Dataset Rules Needs to be Improved

Dataset rules governing FFS and PAR do not enforce least privilege.

OMB Circular A-130 requires agencies to incorporate controls such as least privilege
into applications and application rules. Appendix III “Security of Federal Automated
Information Resources” defines least privilege as “the practice of restricting a user’s
access (to data files, to processing capability, or to peripherals) or type of access (read,
write, execute, delete) to the minimum necessary to perform his or her job.”

Our review of FFS and PAR dataset access rules disclosed three individuals with
access to FFS datasets and five individuals with access to PAR datasets who do not
need the access for their current positions. All of the FFS users and one of the PAR
users identified here have full control over the datasets (read, write, execute, and
allocate), while the other four PAR users have read, write, and execute privileges. One
user with full control to both FFS and PAR datasets has not required that access since
at least March 2005.




                                             6
We observed that BIS does not routinely request reauthorization of dataset accesses.
We also found that a review of the FFS and PAR dataset privileges has not been
performed since we previously identified a problem with those dataset rules in 2002. 6

Excessive rights and privileges to data and sensitive system programs weaken the
overall information security program, and prevent management from ensuring that their
information systems are protected from intentional or unintentional modification.

Recommendations

We recommend that the Bureau of Fiscal Operations:

    4.    perform a review of FFS and PAR datasets, and initiate actions to remove the
          unnecessary access privileges.

We recommend that the Bureau of Information Services:

    5.    ensure that dataset privilege reviews are performed by system owners on an
          annual basis to enforce least privilege.

Management's Response

The Bureau of Fiscal Operations will perform a review of FFS and PAR datasets, and
initiate actions to remove the unnecessary access privileges.

The Bureau of Information Services disagrees with recommendation five because they
believe that enforcement of the security principle of least privilege with regard to data
access is not a management function for BIS and that they provide dataset access
based upon documented requests issued by data owners.

OIG's Comments on Management's Response

In our opinion, the RRB Security Handbook places this responsibility for enforcing least
privilege with BIS security personnel because their responsibilities include:

    •    defining the access control strategy for RRB security management,
    •    modifying component users or dataset profiles to control ACF2 privileges and
         access to protected resources,
    •    assessing systems security requirements of group-level datasets,
    •    monitoring the component's datasets to ensure proper protection of sensitive data,
    •    assisting users in their assessment of user-identification-level datasets, and
    •    assisting users in determining proper level of protection. 7

6
  Review of Information Security at the Railroad Retirement Board, OIG Report No. 02-04, February 5,
2002, Recommendation 9.
7
  RRB Information Systems Security Policy, Standards and Guidelines Handbook (RRB Security
Handbook), Chapter 10.2.6, June 15, 2007.

                                                   7
Additionally, the RRB has implemented a procedure for periodic reviews to reauthorize
users' access rights to component applications which are initiated by BIS security
personnel, but no similar reviews exist for application datasets. This inconsistency in
the RRB's access control strategy creates unnecessary vulnerability to sensitive RRB
data.


Access Controls that Enforce Least Privilege Need Improvement

Mainframe access controls, including the reauthorization process, are ineffective in
ensuring least privilege for all systems.

OMB Circular A-130 requires agencies to incorporate controls such as least privilege
into applications. The RRB has implemented an annual reauthorization review of
mainframe system accesses to enforce least privilege.

Our review of access privileges for a statistical random sample of 45 mainframe users
disclosed 4 users who had inappropriate access based on his or her job function. 8 We
also reviewed the reauthorization process for the mainframe systems which were
identified as inappropriate for those four users. Our reviews of the reauthorization
process revealed problems in the following three areas:

      •    Various system owners apply inconsistent methodologies in determining whether
           a user should retain their current access privileges.
      •    The reauthorization request for one system, EDMA, did not contain accurate
           base-line information.
      •    Reauthorization responses for two systems, FAST and RUCS, were not made or
           fully made by BIS.

Inconsistent Methodology Used

Each year BIS provides the RRB system owners with a reauthorization request to
validate current access privileges, but the methodology used by those system users is
not consistent. The system owner reviews the access privileges shown on the
reauthorization request and instructs BIS in their reauthorization response to leave the
access privilege alone, modify the access privilege to a new transaction level, or delete
the access privilege. When the owner-of-record was in the Office of Programs, inquiries
were routinely made of the individual user’s supervisor to determine whether the current
access privileges were appropriate. However, when the owner-of-record was in BIS,
such inquiries were not made and the owners attempted to determine access
appropriateness themselves. Since users of RRB systems are dispersed throughout
the agency, it is unrealistic to assume that a system owner can know the specific job
functions of every user.

8
    See Appendix II for details of our testing methodology.

                                                       8
Inaccurate Base-Line Information Provided

Transaction level access provided in the EDMA system involves multiple programmed
codes. Most job functions require various combinations of these programmed access
codes, and each combination is translated to a generally known level of access that is
easily identified by the system owner. However, the actual transaction level access of
the user is the individual programmed codes and not the translated generally known
level of access. When BIS prepares the reauthorization request for EDMA, the
combinations of programmed codes for each user are translated to the generally known
level of access. Only the generally known level of access is provided to the system
owner for review. Our sample included one user for which the translation of
programmed codes by BIS was not accurate, and the wrong level of access was
provided to the system owner for reauthorization. We found that the individual
programmed codes for this user did not equate to any generally known level of access.
Instead, the individual programmed codes for this user included one additional code
beyond the combination of codes required for her appropriate level of access.

Reauthorization Responses Not Implemented

Reauthorization responses requesting access modifications were not always made for
two systems, FAST and RUCS. Both of these systems have transaction level access
provided by separate security systems other than ACF2. In our expanded testing of the
reauthorization process for the mainframe systems which were identified as
inappropriate for our sample selection, one of the modification requests for FAST was
not made and five users who were marked as no longer requiring RUCS access
continued to be included in the separate security system that controls RUCS transaction
level access.

Other Access Issues Noted for RUCS

We noted five RUCS users who had been assigned access levels that were
inappropriate to their job function. These users were not identified during the
reauthorization process as having inappropriate access because the system owner
generally validates, through a user's supervisor, whether RUCS access is necessary
and not what level of access is appropriate. As a result, all of these users were given
more access than they required. We also noted four users with access specified in the
separate security system, but not on the RUCS ACF2 access list. These users do not
have RUCS access, but the system owner believes access is necessary for these
users. Since these four users were not on the RUCS ACF2 access list, their
supervisors were not asked to validate whether or not RUCS access is necessary.
Access for these users is currently questionable and may include old, outdated
information in the separate security system.

Ineffective reauthorization of an individual’s rights and privileges prevents management
from ensuring that their information systems are protected from intentional or
unintentional modification, or inappropriate viewing of privacy-related information.

                                            9
Outdated security rules that clutter the security management systems weaken the
overall information security structure and require additional, unnecessary, work efforts
during the reauthorization process as those rules must be repeatedly identified when
requests for removal are ignored.

Recommendations

We recommend that the Office of Programs:

   6.   review the questionable RUCS access identified in our review and ensure only
        appropriate access is allowed;

   7.   ensure the inappropriate ASTRO, FAST, and RUCS access identified by our
        review, and the outdated information in the separate security system that
        controls RUCS transaction level access, are removed; and

   8.   validate with a user's supervisor the RUCS transaction level access maintained
        in the separate security system when reauthorizations of RUCS access are
        performed.

We recommend that the Bureau of Information Services:

   9.   ensure the inappropriate PREH Correction and EDMA access identified in our
        review is removed;

   10. develop procedures to be used by all BIS system owners in conducting system
       reauthorizations which includes validation of user access by the user's
       supervisor; and

   11. provide the EDMA system owner with a reauthorization request that lists the
       users and their individual programmed access codes, rather than one that lists
       the users and their generally known translated access levels.

Management's Response

The Office of Programs agrees with the recommendations and advises that they have
taken corrective action to implement recommendations six and seven. Additionally, the
Office of Programs has advised that a security access audit for RUCS and BASS is
planned for the first quarter of calendar year 2010, at which time recommendation eight
will be addressed.

The Bureau of Information Services agrees with recommendation 11 and advises that
the conversion of access control to RACF will eliminate the use of individual access
codes. However, they disagree with recommendations nine and ten because the
identified employees are considered to have appropriate PREH Correction and EDMA
access, and because position-level roles are adequate indicators for access
requirements and role-based access has been used.

                                           10
OIG's Comments on Management's Response

Our finding was based on interviews with employees or their immediate supervisors to
determine the appropriateness of the employee's access with relation to job function. In
all cases, we were advised that the employee did not have any job functions that
required the use of the application or the level of functionality they held for the
application. We stand by our conclusion that the access for 4 of 45 employees, as cited
in Appendix II, is inappropriate.

With respect to role-based access strategies and the principle of least privilege, it is
important to address how roles change over time. We do not disagree with the use of
role-based access strategies; however, supervisors need to be periodically interviewed
to ascertain the continued appropriateness of the access privileges assigned each role.
During our interviews, we were advised that employees in one unit no longer performed
the job duties for which they held access privileges, and had not performed those job
duties for several years. Without a change in the procedure used by BIS when
reauthorizing access privileges, least privilege access rights will never be achieved.


Field Service Access Profile Needs Updating

The Field Service access profile has not been consistently applied in accordance with
management’s assertion, nor does it enforce least privilege.

OMB Circular A-130 requires agencies to incorporate controls such as least privilege
into applications. The RRB designed a Field Service profile in 1992 to be used for
granting application access to all Field Service employees. This profile has been
modified throughout the years to allow for new systems and functions required by Field
Service employees; but it has not been reviewed by RRB management to ensure its
accuracy.

Our review of access privileges for a statistical random sample of 45 mainframe users
disclosed 3 Field Service employees with different access privileges compared to other
Field Service employees in our sample. 9, 10 This is in conflict with management’s
assertion (through use of an access profile) that all Field Service employees should
have the same access privileges, regardless of the job position they hold.

Since we disagree with management’s assertion that all Field Service positions require
the same access privileges, we reviewed the job descriptions for many of the full-time
Field Service staff and for the six temporary Field Service staff employed at the time of



9
  See Appendix II for details of our testing methodology.
10
   The difference in access granted to these three Field Service employees resulted in lesser privileges
than the other Field Service employees in our sample. Therefore, we did not consider the differences
noted as errors in our statistical sample evaluation.

                                                    11
our review. 11 We found that none of the six contractual agreements for temporary
employment listed job duties that would require the individual to have identical access to
most full-time RRB Field Service employees. We also found that one full-time Field
Service position did not reflect the job duties that required the Field Service access
profile.

Access profiles designed to allow the same rights and privileges to all individuals
increase the risk for inappropriate disclosure of privacy-related information and prevent
management from ensuring their information systems are protected from intentional or
unintentional modification.

Recommendation

We recommend that the Office of Programs:

     12. review the Field Service access profile and restrict its use to only those
         positions that require access to all system privileges contained in that profile.

Management's Response

The Office of Programs has agreed to review the access profiles for the different job
types and their access levels to make sure they have appropriate read/update
capabilities.


Controls over ACF2 Special Privileges Can be Improved

Internal control over ACF2 special privileges need improvement.

OMB Circular A-130 requires agencies to incorporate controls such as least privilege
into applications. GAO's FISCAM guidance further states “[b]road or special access
privileges, such as those associated with operating system software that allow normal
controls to be overridden, are only appropriate for a small number of users who perform
system maintenance or manage emergency situations. Such special privileges may be
granted on a permanent or temporary basis. However, any such access should also be
approved by a senior security manager, written justifications should be kept on file, and
the use of highly sensitive files or access privileges should be routinely reviewed by
management.” ACF2 special privileges provide the type of access described by GAO's
FISCAM, above.

Our review of the ACF2 special privileges disclosed the following internal control
deficiencies:


11
  The RRB Field Service employs temporary workers through separate contractual agreements with
non-Federal employment agencies when workloads require additional staffing. These temporary
employees generally perform clerical duties in individual Field Service offices, and are not RRB
employees.

                                                 12
     •   Segregation of duties and least privilege is not enforced. We identified ten
         individuals, including one contractor, who have the ability to create, modify, or
         delete user accounts and the ability to assign access privileges to those
         accounts. The contractor also has the ability to read all data files, and to submit
         jobs for mainframe processing.

     •   Special privilege reviews and reauthorizations are performed by the system
         administrator who also enters the privilege rights, rather than a senior security
         manager. Such reviews have not always identified unnecessary IDs with special
         privileges for timely deletion. During the course of our review we requested
         additional information regarding one “started task” ID with a special privilege, and
         were informed that the ID had never been used and should be removed from the
         system. We noted that the ID had been active for about three years.

     •   Documentation to support reauthorization reviews of special privileges is not
         created or kept. We were advised that BIS only creates documentation for the
         creation, modification, or deletion of special privilege rights granted outside the
         reauthorization process. This procedure originated in response to problems we
         previously identified with documentation to support the granting of special
         privileges in 2002. 12

The risk of inappropriate access to data and sensitive system programs, as well as the
disruption of services is greater when high-level special privileges are not adequately
controlled.

Recommendations

We recommend that the Bureau of Information Services:

     13. review all assigned special privileges, including started tasks; and ensure
         proper segregation of duties and least privilege is maintained for all users with
         special privileges; and

     14. implement a fully documented reauthorization review process of all special
         privileges by a senior security manager, at least annually. Such reviews should
         consider the identification and timely removal of unnecessary IDs with special
         privileges.

Management's Response

The Bureau of Information Services agrees with recommendations 13 and 14 and
advises that the special privileges, as designed within ACF2, will be reviewed as part of
the conversion to RACF and that the Chief Security Officer will implement a fully-
documented annual reauthorization review process of all special privileges.

12
 Review of Information Security at the Railroad Retirement Board, OIG Report No. 02-04, February 5,
2002, Recommendation 9.

                                                 13
Contractor Account Management Can be Improved

The controls to ensure timely deletion of inactive contractor user accounts are not fully
effective.

OMB Circular A-130 requires agencies to incorporate controls such as least privilege
into applications. This includes the deletion of accounts that are no longer required.
The RRB has implemented policies for the management of user accounts that include
promptly deleting the account from the system when services are no longer provided,
and identifying and reviewing accounts that have not been used in the past year.

During our review of all mainframe and LAN user accounts to verify that each user was
a current employee or an authorized non-employee, we noted one user account for a
contractor whose LAN account had not been used in three months. 13 We also noted
that the contractor’s LAN account did not allow for temporary usage because it was set
to “never expire.”

During interviews, BIS advised us that the contractor was no longer performing services
for the RRB and that they had previously deleted the LAN account. BIS proceeded to
delete the mainframe account in our presence. Two months later, however, we
discovered that the LAN account was still active and brought that information to BIS’
attention. BIS then deleted the LAN account. As a result, the LAN user account
deletion took place nearly two months after BIS had become aware that the contractor
was no longer working, and evidence suggests that the contractor may have ceased
services as much as five months prior to account deletion.

When a contractor continues to have access to systems after they have ceased
employment, the risk of unauthorized access is increased, which weakens the overall
security program.

Recommendation

We recommend that the Bureau of Information Services:

      15. implement a policy to provide for earlier identification and review of inactive
          contractor accounts by utilizing the LAN account expiration setting, and timing it
          to coincide with individual contract expectations.




13
     The contractor was a computer programmer hired to assist in a systems development project.

                                                    14
Management's Response

The Bureau of Information Services agrees with the recommendation and has advised
that all contractor accounts will be established using the LAN account expiration setting,
timed to coincide with individual contract expectations.


Emergency Program Change Controls Can be Improved

Controls designed to ensure that emergency program changes are made in accordance
with proper supervision and authorization need improvement.

GAO Standards for Internal Control in the Federal Government require the proper
authorization and execution of transactions and events by persons acting within the
scope of their authority, as well as the segregation of those duties. GAO's FISCAM
guidance further states that emergency program changes should be promptly tested
and approved; and integrated into change control, retroactively, as soon as possible
after the emergency change is made.

The RRB has designed a control for managing emergency changes by promptly
notifying BIS management of the emergency program change, and providing for a
means to document the supervisor’s subsequent authorization by deleting the source
program code. This deletion automatically writes the program code to a separate file for
audit purposes. There is no written procedure or formal time standard for performing
this activity. We were also advised by BIS that a program developer could not delete
their own program code; only a supervisor can delete the source program code.

Our review of emergency program changes showed that the timeframes for supervisory
deletion of source program code varied, many of which were unduly delayed. Of 22
emergency program changes that occurred in FY 2008, 11 showed evidence of
supervisory review and approval within 2 business days of the emergency change. 14
However, the program code for the other 11 was deleted between 7 and 109 days after
the emergency change took place. We also noted that on one occasion, the emergency
program change was made by a supervisory-level employee, and that person was able
to delete his own program code.

Processing errors or unauthorized program modifications can be introduced into the
information system when adequate supervision and approvals are not present or unduly
delayed.




14
     Of the 22 emergency program changes, 19 were for the same system and occurred prior to May 2008.

                                                   15
Recommendations

We recommend that the Bureau of Information Services:

     16. establish a formal, written, procedure for executing emergency program
         changes. The procedure should specify a formal time standard for the review
         and authorization of the emergency change; and

     17. implement a control to prevent a single individual, including supervisory
         personnel, from preparing an emergency program change and subsequently
         deleting the program code themselves.

Management's Response

The Bureau of Information Services agrees with the recommendations and advises that
they will create a formal written procedure for executing emergency program changes
which specifies a formal time standard for the review and authorization of emergency
changes. The procedure will also specify that the individual who prepares an
emergency program change will not be permitted to delete his or her own program
code.


Password Rules Are Inconsistent and Do Not Enforce Written Policy

The RRB password rule settings are not consistently applied among agency platforms
and do not enforce the written policy.

NIST SP-800-53 requires agencies to manage information system authenticators.
Passwords are used to identify and authenticate users. Identification distinguishes one
user from all others, and provides the means by which specific access privileges are
assigned and recognized by the computer. The most widely used method of
authentication is with a password. As such, passwords must be controlled to reduce the
risk of unauthorized user access. Password rules are the means through which
passwords are controlled, and include settings that stipulate character length and use,
minimum and maximum age, password reuse, and account lockout when inaccurate
authentication attempts are made.

NIST has also developed the Federal Desktop Core Configuration (FDCC) security
configurations which include password rule settings for workstations. OMB has directed
all agencies to implement the FDCC. The RRB has also established a written password
policy, and has implemented password rules using global settings in both the LAN and
mainframe platforms, as well as for agency workstations. 15



15
  The global settings have been implemented through separate Group Policy Objects for the LAN servers
and the FDCC regulated workstations, as well as through ACF2 Global Systems Options for the
mainframe.

                                                 16
We observed that the RRB’s written password policy is out of date, and has not been
adjusted to conform to the FDCC security configurations. Our reviews of the RRB’s
password settings within the mainframe and LAN general support systems, including
those for agency workstations, showed that the various settings are inconsistent and do
not fully enforce the NIST FDCC security configurations. 16

Our test of the effect of these inconsistencies showed that the FDCC password settings
established in the FDCC Group Policy Object are not being applied. In the RRB’s LAN
general support system, user authentication is a function performed at the server level
and not locally on the user’s workstation. Although the FDCC security configurations
apply to the workstations, and not the servers, the FDCC password settings must be
implemented at the server level in order for them to take effect. In addition, during our
validation testing of major password rules, we observed that the RRB does not routinely
apply the LAN password setting to enforce single use of a temporary password when
the user is assigned a new password by the system administrators.

Weak password rules increase the risk of unauthorized access to information systems.

Recommendations

We recommend that the Bureau of Information Services:

     18. update the written password policy in the Security Handbook and ensure its
         conformance to the FDCC security configurations;

     19. apply the FDCC password settings in the LAN server Group Policy Object; and

     20. instruct the system administrators to begin using the temporary LAN password
         setting.

Management's Response

The Bureau of Information Services agrees with the recommendations and advises that
to the extent practicable, the written password policy in the RRB Security Handbook will
be updated in conformance with the FDCC security configuration. They will also apply
the FDCC password settings in the LAN server Group Policy Object, and will instruct
Customer Support Help Desk personnel to begin using the temporary LAN password
setting.




16
  The inconsistent settings are, in some instances, necessary due to software constraints. However, in
other instances, the RRB has decided to deviate from the FDCC security configuration setting.

                                                  17
                                                                               Appendix I


                          METHODOLOGY AND RESULTS
               Effectiveness of Controls over Access Provided to PAR


We evaluated the access controls designed to ensure that individual user access to
PAR is appropriate for their current job position.

Objective

The objective of our test was to determine whether existing controls are effective to
ensure that the authorized individuals have appropriate access to the PAR system.

Scope

We selected our sample from the population of 84 PAR users with greater than
read-only access as of December 10, 2008.

Review Methodology

We used statistical attribute acceptance sampling using a 90% confidence and 6%
tolerable error rate which directed a sample size of 49 users. The threshold for
acceptance was one. If one or fewer errors were identified, the auditors may infer with
90% confidence that control errors would not exceed 6%, and the controls were
operating and effective.

We obtained and reviewed the individual access profiles for each user in our sample to
determine if the accesses specified were appropriate to their job function. An error was
defined as:

   •    A control that was not operating;
   •    An operating control that could not be evidenced; or
   •    An unacceptable outcome, such as inappropriate access, indicated that the
        control was not effective.

Results of Review

Our evaluation of 49 randomly selected PAR users with greater than read-only access
identified 24 who are able to both enter and approve their own transactions. As a result,
the access control designed to enforce segregation of duties is not operating and it does
not restrict a user’s actions based on their job function.

Conclusion

The 24 exceptions exceed the sample acceptance threshold. As a result, we cannot
conclude that controls are effective to ensure that individual user access is appropriate
and only allows access that is required for the performance of current job functions.


                                            18
                                                                               Appendix II


                            METHODOLOGY AND RESULTS
                Effectiveness of Controls over Access Provided by ACF2


We evaluated the access controls designed to ensure that individual user access is
appropriate to their current job position.

Objective

The objective of our test was to determine whether existing controls are effective in
ensuring that the authorized individuals have appropriate access to RRB information
systems through an ACF2 user ID.

Scope

We selected the sample from the population of 946 ACF2 mainframe users as of
January 30, 2008.

Review Methodology

We used statistical attribute acceptance sampling using a 90% confidence and 5%
tolerable error rate which directed a sample size of 45 users. The threshold for
acceptance was zero. If no errors were identified, the auditors may infer with 90%
confidence that control errors would not exceed 5%, and the controls were operating
and effective.

We obtained and reviewed the individual access profiles for each user in our sample to
determine if the accesses specified were appropriate to their job function. An error was
defined as:

   •    A control that was not operating;
   •    An operating control that could not be evidenced; or
   •    An unacceptable outcome, such as inappropriate access, indicated that the
        control was not effective.

Results of Review

Our evaluation of 45 randomly selected mainframe users identified 4 users whose
access profile included privileges that were not required to perform their current job
responsibilities, as follows.

User No.                             Type of Errors Identified
            •    Has access to PREH Correction without job duties dependent on that
    1
                 system.




                                            19
                                                                               Appendix II


User No.                                Type of Errors Identified
             •   Has access to PREH Correction without job duties dependent on that
                 system.
    2        •   Reauthorization requested removal of RUCS access, but removal was
                 only applied to the RUCS user list in ACF2 and not the RUCS user list in
                 the separate security system.
             •   Has access to PREH Correction without job duties dependent on that
    3            system.
             •   Has access to FAST without job duties dependent on that system.
             •   Has access to ASTRO without job duties dependent on that system.
             •   Has excessive access to EDMA without job duties for that function.
    4
             •   Reauthorization request for EDMA did not include accurate base-line
                 information.

Conclusion

The four exceptions exceed the sample acceptance threshold. As a result, we cannot
conclude that controls are effective to ensure that individual user access is appropriate
and only allow access that is required for the performance of current job functions.




                                             20
                                                                   Appendix III
                UNITED STATES GOVERNMENT	                                          FORM G-l15f   [1-82]



                 MEMORANDUM                                   RAILROAD RETIREMENT BOARD


                                                              SEP 21 2009
TO	          Letty Benjamin Jay
             Assistant Inspector General for Audit


FROM	        Kenneth P. Boehne    ~~~
             Chief Financial Officer


SUBJECT:	 Draft Report - Audit of the General and Application Controls in the
          Financial Management Major Application System



Thank you for the opportunity to review and comment on the above draft report dated
September 11, 2009. Our comments are as follows:

We recommend that the Bureau of Fiscal Operations:

      1.	   implement a control to ensure supervisory review of transactions that
            are self-processed.

            We will implement a control to ensure supervisory review of transactions
            that are self-processed. Target date: March 31,2010.

      4.	   perform a review of FFS and PAR datasets, and initiate actions to
            remove the unnecessary access privileges.

            We will perform a review of FFS and PAR datasets, and initiate actions to
            remove the unnecessary access privileges. Target date: February 26,
            2010.


cc:	 John Walter, Chief of Accounting, Treasury and Financial Systems
     Kristofer Garmager, Financial Systems Manager
     Tom McCarthy, Debt Recovery Manager
     Bill Flynn, Executive Assistant
     Jill Roellig, Management Analyst




                                          21
                                                                               Appendix IV


                                                                                          FORM G-115f (1·92)

                                                                        RAILROAD   RETIREMENT      BOARD
                      MEMORANDUM
                                                                             SEP 232009




                 Dorothy Isherwood
                 Director of Programs



                 Draft Report - Audit of the General and Application Controls in the
                 Financial Management Major Application System




Overall           We have reviewed the draft report and appreciate the fact that the review
comments          determined that the general and application controls over entity-wide security
                  program planning and management, data center access, non-emergency
                  systems development, and service continuity/data recovery and backup
                  procedures are adequate.

                  We concur with the recommendations      and will take action on those directed
                  to the Office of Programs as follows.


Recommendation    The OIG recommends that the Office of Programs:
2




OP Response       We agree. The Chief of Unemployment and Program Services Division will
                  initiate quarterly reviews in FY 2010. We plan to close out this
                  recommendation by May 31,2010 after the second review has been
                  completed.



Recommendation    The OIG recommends that the Office of Programs
3
                  Perform a validation study to assess the accuracy of other types of Medicare
                  self-processed transactions.




                                                   22
                                                                                  Appendix IV




OP Response	     We concur. We will complete a validation study and issue a report by
                 September 30, 2010. That report will determine the need for additional
                 studies, if any.


Recommendation	 The OIG recommends that the Office of Programs
6
                Review the questionable RUeS access identified in our review and ensure
                only appropriate access is allowed.



OP Response      We concur. In fact, we have already taken corrective action which we
                 documented in an email to your office on Sept. 22, 2009.


Recommendation   The OIG recommends that the Office of Programs
7
                 Ensure the inappropriate ASTRa, FAST, and RUeS access identified by our
                 review, and the outdated information in the separate security system that
                 controls RUeS transaction level access, are removed.



OP Response      We concur. In fact, we have already taken corrective action which we
                 documented in an email to your office on Sept. 22, 2009. .


Recommendation   The OIG recommends that the Office of Programs
8
                 Validate with a user's supervisor the RUeS transaction level access
                 maintained in the separate security system when reauthorizations of RUeS
                 access are performed      .



OP Response	     We concur. The next security access audit for RUeS and BASS is planned
                 for the first quarter of calendar year 2010. Our target date for closing out this
                 audit recommendation is April 30, 2010.


Recommendation	 The OIG recommends that the Office of Programs
12
                 Review the Field Service access profile and restrict its use to only those
                 positions that require access to all system privileges contained in that
                 profile.




                                                   23
                                                                                  Appendix IV




OPResponse	      We concur. Field Service and Policy and Systems will work together to
                 review the access profiles for the different job types and their access levels
                 to make sure they have appropriate read/update capabilities. This review will
                 be completed by March 31,2009.



cc:	   Chief Information Officer
       Chief Financial Officer
       Director of Policy and Systems
       Director of Operations
       Director of Field Service




                                                  24
                                                                       Appendix V
                                                                                   FORM G-1151 (1-92)
                  ONI'l'ED STA'I'~;S GOVEHNM~;NT
                                                                  RAILROAD RETIHEM~;N'I' BOARI>
                 MEMORANDUM



                                                              September 28, 2009


TO	           Letty B. Jay,
              Assistant Inspector General for Audit

FROM	         Terri S. Morgan,          '"" I. .lAY!,rtCt-­
              Chief Information Officer ~       'tI1/(; 't!
SUBJECT:	 Draft Report - Audit of General and Application Controls over the
          Financial Management Major Application System


Thank you for the opportunity to review and respond to the subject draft report. The
following are the responses to the recommendations included in the report that were
addressed to the Bureau of Information Services.

Recommendation #5
We recommend that the Bureau of Information Services ensure that dataset privilege
reviews are performed by system owners on an annual basis to enforce least privilege.

Response
BIS disagrees with this recommendation. In general, we believe that enforcement of the
security principle of least privilege with regard to data access is not a management
function for BIS. BIS provides dataset access based upon documented requests issued
by data owners. BIS is not responsible for determining least privilege or defining the
least amount of privileges needed by users to perform their business functions.
Business analysts in the owner bureaus/offices are granted the least privilege read
access to datasets relevant to the work of the bureau/office. Elevated access required
to write to production data files generally is not allocated to individuals. System owners
can enforce least privilege by limiting dataset access privileges to the minimum number
of employees needing access to data.

Recommendation #9
We recommend that the Bureau of Information Services ensure the inappropriate PREH
Correction and EDMA access identified in our review is removed.

Response
BIS disagrees with this recommendation. The identified employees are considered to
have appropriate PREH Correction and EDMA access. No further action is necessary.




                                              25
                                                                          Appendix V



Recommendation #10
We recommend that the Bureau of Information Services develop ;procedures to be used
by all BIS system owners in conducting system reauthorizations which includes
validation of user access by the user's supervisor.

Response
BIS disagrees with this recommendation. BIS rejects this recommendation on the basis
that role based access control (RBAC) is within NIST guidelines. The RRB has chosen
the position as the role for access, as this is the practical level of control for BIS'
staffing. While more granular choices can be made, business and technical experts
have agreed in the past that position level roles are adequate indicators of access
requirements. The next scheduled reauthorization of the PREH and EDM application is
scheduled to be conducted by Data Management Group in the 3rd calendar quarter of
2010.

Recommendation #11
We recommend that the Bureau of Information Services provide the EDMA system
owner with a reauthorization request that lists the users and their individual
programmed access codes, rather than one that lists the users and their generally
known translated access levels.

Response
BIS agrees with this recommendation. As part of the conversion of access control to
RACF, individual access codes are being eliminated. When conducting the
reauthorization review of the EDMA system, Systems Assurance Group will provide the
owner with a report of users and their access level descriptor. The next reauthorization
review for the EDMA system is scheduled for the 3rd calendar quarter 2010.

Recommendation #13
We recommend that the Bureau of Information Services review all assigned special
privileges, including started tasks; and ensure proper segregation of duties and least
privilege is maintained for all users with special privileges.

Response
BIS agrees with this recommendation. As part of the conversion to RACF, special
privileges as designed within ACF-2 are being reviewed by Infrastructure Services
Center. The conversion will be completed on or before December 1, 2009.

Recommendation #14
We recommend that the Bureau of Information Services implement a fully documented
reauthorization review process of all special privileges by a senior security manager, at
least annually. Such reviews should consider the identification and timely removal of
unnecessary IDs with special privileges.




                                            26
                                                                           Appendix V



Response
BIS agrees with this recommendation. The Chief Security Officer will implement a fully
documented annual reauthorization review process of all special privileges. The first
such annual review will be conducted in January 2010.

Recommendation #15
We recommend that the Bureau of Information Services implement a policy to provide
for earlier identification and review of inactive contractor accounts by utilizing the LAN
account expiration setting, and timing it to coincide with individual contract expectations.

Response
BIS agrees with this recommendation. Effective immediately, all contractor accounts
will be established using the LAN account expiration setting, timed to coincide with
individual contract expectations. Systems Assurance Group will require the form G-455,
Computer Access Authorization Request, when used for temporary contractors, to be
notated with the expected account expiration date.

Recommendation #16
We recommend that the Bureau of Information Services establish a formal, written,
procedure for executing emergency program changes. The procedure should specify a
formal time standard for the review and authorization of the emergency change.

Response
BIS agrees with this recommendation. Application Design Center will create a formal,
written procedure for executing emergency program changes that specifies a formal
time standard for the review and authorization of the emergency change. This
procedure will be produced by April 1, 2010.

Recommendation #17
We recommend that the Bureau of Information Services implement a control to prevent
a single individual, including supervisory personnel, from preparing an emergency
program change and subsequently deleting the program code themselves.

Response
BIS agrees with this recommendation. Application Design Center will specify in the
emergency program change process that the individual who prepares an emergency
program change will not be permitted to delete their own program code. This procedure
will be produced by April 1, 2010.

Recommendation #18
We recommend that the Bureau of Information Services update the written password
policy in the Security Handbook and ensure its conformance to the FDCC security
configurations.




                                             27
                                                                       Appendix V



Response
BIS agrees with this recommendation. To the extent that is practicable, the Risk
Management Group will update the written password policy in the Security Handbook in
conformance with the FOCC security configuration by January 1, 2010.

Recommendation #19
We recommend that the Bureau of Information Services apply the FOCC password
settings in the LAN server Group Policy Object.

Response
BIS agrees with this recommendation. Infrastructure Services Center will take action to
apply the FOCC password settings in the LAN server Group Policy Object. This will be
completed by January 1, 2010.

Recommendation #20
We recommend that the Bureau of Information Services instruct the system
administrators to begin using the temporary LAN password setting.

Response
BIS agrees with this recommendation. The Customer Support Help Oesk personnel will
be provided with instructions to begin using the temporary LAN password setting by
November 1, 2009.




                                           28
